2006 Shelter-In-Place Drill
Skip top navigation
Skip to content
Español | Other Languages
U.S. Equal EmploymentOpportunity Commission
Home
About EEOC
Overview
The Commission
Meetings of the Commission
Open Government
Newsroom
Laws, Regulations, Guidance & MOUs
Budget & Performance
Enforcement & Litigation
Initiatives
Interagency Programs
Publications
Statistics
Outreach & Education
Legislative Affairs
FOIA & Privacy Act
Doing Business with EEOC
Jobs & Internships
EEOC History
Office of Inspector General
Employees & Applicants
Overview
Coverage
Timeliness
Filing A Charge
How to File
Charge Handling
Confidentiality
Mediation
Remedies
Existing Charges
Filing a Lawsuit
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Employers
Overview
Coverage
Charge Handling
Resolving a Charge
Remedies
Discrimination by Type
Age
Disability
Equal Compensation
Genetic Information
Harassment
National Origin
Pregnancy
Race/Color
Religion
Retaliation
Sex
Sexual Harassment
Prohibited Practices
Recordkeeping
EEO Reports/Surveys
"EEO Is The Law" Poster
Training
Other Employment Issues
Federal Agencies
Overview
Federal Employees & Applicants
Federal Complaint Process
Discrimination by Type
Other Federal Protections
Prohibited Practices
Federal EEO Coordination
Federal Agency EEO Directors
Laws, Regulations, Guidance & MOUs
Management Directives & Federal Sector Guidance
Federal Sector Alternative Dispute Resolution
Federal Sector Reports
Appellate Decisions
Digest of EEO Law
Form 462 Reporting
Federal Training & Outreach
Contact Us
Contact EEOC
Find Your Nearest Office
Frequently Asked Questions
Home > About EEOC > Office of Inspector General
March 29, 2007
MEMORANDUM
TO:
Jeffrey Smith, Chief Financial Officer
Office of Chief Financial Officer and Administrative Services
FROM:
Aletha L. Brown
Inspector General
SUBJECT:
Review of October 31, 2006 Shelter-In-Place Drill
(OIG Report No. 2007-03-AMR)
MANAGEMENT ADVISORY
Background
The Federal Management Regulations mandate that every federal facility shall create 1) an Occupant Emergency Plan that provides procedures to protect life and property in emergency situations, and 2) an occupant emergency organization to perform tasks outlined in the Occupant Emergency Plan. Shelter-In-Place (SIP) is an event in which building occupants do not evacuate the facility but are moved to areas that provide maximum protection from an external threat.
EEOC holds Shelter-In-Place emergency drills at Headquarters. Six SIP drills have been heldtwo drills were held in 2003 and 2004, one drill was held in 2005 and 2006. We decided to review the most recent SIP drill, held on October 31, 2006, for two reasons:
SIP drills directly relate to the health and safety of EEOC staff working in Headquarters, contractor staff, and guests
Based upon the OIGs informal observations during the drill, there may be issues of concern
The primary purpose of review was to determine to what degree EEOC met its objectives for the October 31, 2006 drill. In addition, we sought to determine if issues of concern occurred during the drill. From December 2006 through March 2007, OIG obtained and analyzed written documents and interviewed Agency staff, including those managing the SIP program in the Office of Chief Financial Officer and Administrative services, and Floor Captains/Area Monitors. On March 7, OIG and OCFOAS staff met and conducted a close out conference to discuss OIGs preliminary observations and related issues.
Observations Regarding the October 31, 2006, SIP
EEOC had no clear objectives for the drill, making it difficult for the Agency or OIG to assess the results of the drill.
Ground floor security staff were not adequately prepared for the drill (e.g., they did not properly execute procedures for managing access into and out of the building).
Procedures for managing access into and out of the Headquarters Building during a SIP event need clarification.
Because attendance at emergency training classes is not high, EEOC may have staff who are less than thoroughly prepared for an actual SIP event.
Agency Order 180.001, Occupant Emergency Plan, does not include SIP procedures. (The Federal Management Regulations state that OEPs must include procedures for shelter in place).
Nineteen of twenty-four SIP operation logs (recording events at SIP shelter stations) were not completed. Seven of the twenty-four SIP rosters were not completed.
Communication was hampered by audio problems in several locations.
Most SIP kits were complete, though at least one kit was incomplete (missing two non-essential items).
Water and food at levels meeting EEOCs goals were available (they were not distributed during the drill because staff do not need water and food in a short duration drill).
The drill lasted about 35 minutes, longer than the 30 minutes SIP managers estimate is a reasonable time period.
Comment
Some senior Agency Managers have not participated in past SIP drills (although this behavior was not documented in the most recent SIP drill, OIG believes that such behavior hampers the effectiveness of the SIP program).
Management Course of Action
Therefore, Agency management should act to implement the following changes:
Include SIP procedures in Agency Order 180.001, Occupant Emergency Plan.
Develop well defined objectives for the next SIP drill. The draft SIP procedures may provide a good starting point for identifying formal objectives and developing a mechanism (e.g., a checklist) to track progress towards meeting the objectives.
Ensure Ground Floor security staff are adequately prepared for a SIP drill (e.g., rehearsing procedures in anticipation of various scenarios).
Improve attendance at SIP training (e.g., make such training mandatory for Floor Captains and Area Monitors).
Develop and implement procedures to ensure that all activity logs and rosters are completed and submitted to SIP managers upon completion of a SIP drill/event (OCFOAS recently added an item on this issue in its Standard Operating Procedures).
Periodically ensure that audio transmission equipment is operating properly.
Require staff (including senior Agency managers) to fully participate during all SIP drills.
Privacy Policy | Disclaimer | USA.Gov